 

No. 19-1040

IN THE
Supreme Court of the United States

MARCH FOR LIFE EDUCATION AND DEFENSE FUND,
Petitioner,
v.
CALIFORNIA, et al.,
Respondents.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this 7 day of
April, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies of the foregoing
REPLY BRIEF FOR PETITIONER by placing said copies in the U.S. mail, first class postage
prepaid, addressed as listed below.

Aimee Feinberg Noel J. Francisco

Deputy Solicitor General Solicitor General of the United States
California Department of Justice United States Department of Justice
1300 I Street 950 Pennsylvania Avenue, NW

Suite 125 Washington, DC 20530-0001
Sacramento, CA 95814 (202) 514-2217
Aimee.Feinberg@doj.ca.gov SupremeCtBriefs@USDOJ.gov

Mark L. Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW °
Suite 700

Washington, DC 20036
mrienzi@becketlaw.org

 

 

1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 7 day of April, 2020.

KAREN sa Derwagal

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

    

ee Se!
EsCwOTARy

 

 

 
